OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S CAPITAL
PLANNING AND INVESTMENT
CONTROL FOR THE FOREIGN
ASSISTANCE COORDINATION
AND TRACKING SYSTEM
(FACTS)
AUDIT REPORT NO. A-000-07-006-P

SEPTEMBER 14, 2007




WASHINGTON, DC
Office of Inspector General


September 14, 2007

MEMORANDUM

TO:                  Acting Administrator, Henrietta H. Fore

FROM:                Inspector General, Donald A. Gambatesa /s/

SUBJECT:             Audit of USAID’s Capital Planning and Investment Control for the Foreign
                     Assistance Coordination and Tracking System (FACTS)
                     (Audit Report No. A-000-07-006-P)

This memorandum transmits the Office of Inspector General’s final report on the subject audit.
In finalizing this report, we considered your comments on the draft report and made changes
where appropriate. Your comments are represented in their entirety in Appendix II.

This report contains three recommendations to improve the controls over the Foreign
Assistance Coordination and Tracking System. Based on the responses received to our draft
report, management decisions have been reached on Recommendations Nos. 1, 2, and 3.
Please notify the Bureau for Management’s Audit, Performance and Compliance Division when
final action is completed.

I appreciate the cooperation and courtesies extended to my staff during this audit by members
of the Office of the Director of Foreign Assistance and of the Bureau of Global Health.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 5

Audit Finding ................................................................................................................... 6

     FACTS Did Not Go Through a Capital Planning and Investment Control
     Review Process .......................................................................................................... 6

Evaluation of Management Comments ....................................................................... 13

Appendix I – Scope and Methodology ........................................................................ 14

Appendix II – Management Comments ....................................................................... 16
SUMMARY OF RESULTS
The Information Technology and Special Audits Division of the Office of Inspector
General (OIG) in Washington, DC, conducted this audit to determine whether USAID’s
capital planning and investment control (CPIC) process requirements were followed for
vetting and approving the Foreign Assistance Coordination and Tracking System
(FACTS) in accordance with the Clinger-Cohen Act. The act requires executive agencies
to use a CPIC process to acquire, use, maintain, and dispose of information technology
(IT), and requires the Office of Management and Budget (OMB) to establish processes
to analyze, track, and evaluate the risks and results of major capital investments in IT
systems. Executive agencies submit Exhibit 300 business cases in their annual budget
submissions to OMB to provide capital investment data on IT systems (pages 3-4).

FACTS will provide a single repository for data and a common planning and reporting
tool for foreign assistance resources across U.S. Government agencies implementing
programs with foreign assistance funds. The intent is to ensure that all foreign
assistance resources are coordinated, appropriately linked to foreign policy objectives,
supportive of integrated country strategies, and designed to collect standardized data
about foreign assistance programs. FACTS, which is owned and sponsored by the Office
of the Director of Foreign Assistance (State/F), is intended to replace each agency’s
foreign assistance planning and programming systems. The Director of Foreign
Assistance also serves as the Administrator for USAID. State/F directed the development
and implementation of FACTS; however, the funding and contract mechanism for its
development and implementation was supported through USAID (page 3).

The audit found that USAID’s CPIC processes were not used for vetting and approving
FACTS in accordance with the Clinger-Cohen Act. State/F’s project team for FACTS
considered preparing and submitting an Exhibit 300 to OMB using USAID’s or State’s
CPIC processes, but neither was used because of the budget cycle’s timing. Specifically,
State/F’s project team for FACTS did not do the following:

   •   Prepare an Exhibit 300 for evaluation and submission to OMB through the
       budget process, which would address the following bulleted items (page 6).
   •   Prepare a formal analysis of system alternatives (page 7).
   •   Use prescribed OMB metrics to monitor cost and schedule performance
       (page 8).
   •   Review FACTS’ architecture to ensure compliance with Federal enterprise
       architecture requirements (page 9).

FACTS is at increased risk of not meeting cost, performance, and promised capabilities
and of not obtaining sustainable funding for continued development, support, and
operation. The primary causes for these problems are (1) the unclear oversight roles and
responsibilities for FACTS between USAID and State at the outset of the project and (2)
the aggressive schedule imposed by State/F to deploy FACTS for the fiscal year 2007
planning cycle (pages 9-11). FACTS’ far-reaching vision is ambitious and commendable,
reinforcing the need to follow a CPIC process and ensure compliance with the Clinger-
Cohen Act. To improve the controls over FACTS, the OIG recommended that the Acting
Administrator (1) explicitly clarify whether FACTS will be subject to USAID’s or State’s
CPIC review oversight processes; (2) ensure that a business case is developed, vetted,


                                                                                      1
and submitted to OMB for funding; and (3) suspend additional funding for further
development of FACTS until it is vetted through the CPIC review process (page 11).

USAID’s management agreed to take corrective action on all three recommendations in
the report. Based on management’s response, management decisions were reached on
all three recommendations (page 13).




                                                                                 2
BACKGROUND
The events of September 11, 2001, and the War on Terror have made foreign
assistance an essential component of the President’s National Security Strategy in
supporting transformational diplomacy 1 efforts to make the United States and the world
safer. Against this backdrop, in January 2006 the Secretary of State announced a major
change in the way the U.S. Government directs foreign assistance by creating the Office
of the Director of Foreign Assistance (State/F) to centralize the structure for rationalizing
and coordinating U.S. foreign assistance policy, planning, and oversight.
Organizationally, State/F is within the Department of State. The Director of Foreign
Assistance (DFA) serves concurrently as the Administrator for the USAID.

The DFA is charged with directing the transformation of the U.S. Government’s
approach to foreign assistance and ensuring that foreign assistance is used as
effectively as possible to meet broad foreign policy objectives. In support of the DFA,
State/F needed a unified information system to link the Department of State, USAID,
and other U.S. Government agencies’ foreign assistance programs to their funding,
activities, and results.

In June 2006, the DFA approved a request to develop a system to support foreign
assistance monitoring, budgeting, and information requests. This system is known as the
Foreign Assistance Coordination and Tracking System (FACTS). A sole-source
justification prepared by USAID’s Bureau of Global Health was approved for FACTS.
This justification was based on the rationale that, if the system was not functioning in
time to submit the fiscal year (FY) 2007 Congressional Notification, USAID’s ability to
meet foreign assistance objectives would be impaired. An existing USAID contract 2 to
provide technical assistance and services in support of the Country Operational Plan
and Reporting System (COPRS) was modified to provide approximately $3 million 3 in
additional funds in FY 2006 for the development of FACTS. According to State/F
officials, State/F used COPRS as the basis for FACTS because COPRS already
incorporated features similar to those that were needed in FACTS. State/F indicated that
this approach was communicated to and cleared by USAID’s and State’s offices of the
chief information officer.

FACTS will provide a single repository for data and a common planning and reporting
tool for foreign assistance resources across U.S. Government agencies implementing
programs with foreign assistance funds. The intent is to ensure that all foreign
assistance resources are coordinated, appropriately linked to foreign policy objectives,
supportive of integrated country strategies, and designed to collect standardized data
1
    “Transformational diplomacy” describes efforts to build and sustain democratic, well-governed
    states that will be responsive to the needs of their people and conduct themselves responsibly
    in the international system.
2
    USAID’s Bureau of Global Health entered into a cost-plus-award-fee contract (Contract No.
    GPO-C-00-06-0002-00). The Country Operational Plan and Reporting System is used to
    provide operational support, maintenance, management, and enhancement for the President’s
    Emergency Plan for AIDS Relief. FACTS was initiated under Modification No. 1 to this
    contract, effective July 21, 2006, through July 20, 2007.
3
    As of December 31, 2006, the project’s contractor reported that of the approximate $3 million
    obligated, $2 million was expended for FACTS.


                                                                                                3
about foreign assistance programs. The goal is for FACTS to eventually replace each
agency’s existing foreign assistance planning and programming systems. FACTS went
live on December 10, 2006, with an expanded scope from the initial pilot of State’s 35
countries to USAID’s entire foreign assistance budget. Although FACTS is funded by
USAID, the system is sponsored, owned, and categorized as a major system by State/F.
A major system is one that requires special management attention because of its
importance to an agency mission; its high development, operating, or maintenance
costs; or its significant role in the administration of agency programs, finances, property,
or other resources.

To improve the implementation and management of Federal information technology (IT)
projects, the Clinger-Cohen Act was enacted in 1996 to require executive agencies to
use a disciplined capital planning and investment control (CPIC) process to acquire, use,
maintain, and dispose of IT. Furthermore, the Clinger-Cohen Act requires the Office of
Management and Budget (OMB) to establish processes to analyze, track, and evaluate
the risks and results of major capital investments in IT systems made by executive
agencies.

The requirements established by the Clinger-Cohen Act are prescribed best practices
intended to reduce potential problems surrounding IT projects, including cost
escalations. These best-practice requirements include the following:

   •   Selection, control, and evaluation of IT investments

   •   Use of performance- and results-based management

   •   Accountability and IT asset management

   •   Review of IT architecture

OMB plays a key role in the oversight of Federal IT investments, how these investments
are managed and evaluated, and how they use prescribed best practices. OMB collects
and evaluates IT investments primarily by executive agencies submitting business cases
(Exhibit 300s) as part of their budget requests. Exhibit 300 is a key document of the
CPIC process. It provides information to help stakeholders make “go” and “no-go”
decisions, and manage cost and schedule performance goals. Specifically, agencies
submit this document to OMB to justify resource requests for major IT investments.
Furthermore, as a reporting mechanism, Exhibit 300 enables an agency to demonstrate
to OMB that it has (1) developed a strong business case for the IT investment, (2) used
good project management practices, and (3) defined the proposed cost and schedule
performance goals for the investment. Exhibit 300 consists of the following key sections:
alternatives analysis, cost and schedule performance, enterprise architecture, and
security and privacy.

A CPIC process relates to an agency’s selection of IT investments, the management of
such investments, and the ongoing evaluation of investments. USAID’s CPIC phases
and the actions and outputs occurring within each phase are presented in table 1.




                                                                                          4
Table 1. Actions and Outputs of the Four Phases of USAID’s CPIC Process

Phase             Actions                               Outputs
Preparation       • Formulate investment concept        • OMB Exhibit 300 (or other
                  • Determine potential investment         business case proposal
                     level                                 documentation)
                  • Prepare investment proposal         • Decision on congruence of
                     documentation                         proposal with architecture
                  • Check proposal for                     requirements
                     architectural compatibility and
                     security compliance
Selection         • Prepare investment proposal         •   Investment presentation
                     presentation                           material
                  • Present proposal to CPIC            •   Recommendation on
                     committee                              investment
                  • Submit accepted proposals to        •   Approval
                     Administrator for final approval
Control           • Oversee and manage                  •   Periodic progress reports
                  • Report on status                    •   Decision on whether to
                  • Have CPIC committee review              continue project
                     status
Evaluation        • Assess success of project           •   Implementation review report
                  • Review reports                      •   Lessons learned
                  • Determine lessons learned



AUDIT OBJECTIVE
The audit team evaluated the FACTS project against USAID’s policy because USAID
provided the contract and funding for the project. This audit was added to the Office of
Inspector General’s annual audit plan to answer the following question:

          Did USAID follow capital planning and investment control process requirements
          for vetting and approving the Foreign Assistance Coordination and Tracking
          System in accordance with the Clinger-Cohen Act?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                           5
AUDIT FINDING
USAID did not follow capital planning and investment control (CPIC) process
requirements for vetting and approving the Foreign Assistance Coordination and
Tracking System (FACTS) in accordance with the Clinger-Cohen Act. This was due in
part to the unclear roles and responsibilities between USAID and the Office of the
Director of Foreign Assistance (State/F). Although both USAID and the Department of
State have developed policies and procedures for information technology (IT) capital
planning and investment reviews in support of the Clinger-Cohen Act, they did not use
those policies and procedures in the development and implementation of FACTS.

FACTS Did Not Go Through a Capital
Planning and Investment Control
Review Process
 Summary: The FACTS project did not go through a CPIC review process at USAID as
 required by the Clinger-Cohen Act. Nor did State/F use State’s CPIC review
 processes over FACTS.

 For example,

    •   A business case was not prepared and submitted to OMB for review.
    •   An alternatives analysis was not formally conducted.
    •   The development and implementation of FACTS was not monitored using
        OMB’s prescribed methods to monitor cost and schedule performance.
    •   A review of FACTS’ architecture was not undertaken to ensure compliance
        with Federal enterprise architecture requirements.

 The above conditions occurred primarily because of the following:

    •   The unclear oversight roles and responsibilities for FACTS between State and
        USAID at the outset of the project.
    •   The aggressive schedule imposed by State/F to deploy FACTS for the fiscal
        year (FY) 2007 planning cycle.

 Because FACTS was not subjected to a CPIC process, it is unknown whether FACTS,
 as implemented, was the best alternative for its intended purpose, was meeting
 project cost and schedule performance goals, and will obtain sustainable funding for
 continued development, support, and operation.


FACTS business case, Exhibit 300, is needed – A first step in USAID’s CPIC process
is the evaluation of a proposed project and the preparation of an Exhibit 300. However,
USAID did not complete or present an Exhibit 300 to the CPIC committee, so the FACTS
project began without the oversight of a CPIC process. Furthermore, an Exhibit 300 was
not submitted to OMB as part of the agency’s budget request. Exhibit 300 is important
because it justifies the necessity for a project and lays the foundation for how the project
will be evaluated, managed, and funded.


                                                                                          6
In the course of the audit, the audit team noted several problems that might have been
prevented if the FACTS project had been vetted through a CPIC process and if an
Exhibit 300 had been prepared. These problems are highlighted in table 2.

Table 2. Relationship Between Exhibit 300 Planning Sections and Problems Noted
with the FACTS Project

 Selected Exhibit 300 topics and          Problems that might have been prevented
 requirements                             or reduced
 Alternatives Analysis – Requires         • A formal and structured investment analysis
 structured investment analysis that         of alternatives was not conducted to
 considers life-cycle costs, defined         demonstrate that FACTS would be the most
 return on investment, quantitative          efficient and effective option based on cost
 benefits, and explanation of                and functional business requirements over
 alternative chosen.                         the life of the system.

 Metrics for Measuring Cost and           • Prescribed methods were not used to
 Schedule Performance – Requires            determine whether development of project
 the use of earned value metrics to         components were meeting expected cost
 show whether a project is meeting          and schedule performance goals.
 approved cost and schedule
 performance goals.

 Enterprise Architecture – Requires       • The FACTS architecture was not reviewed
 a definition of the relationship           to ensure that key Federal enterprise
 between the system, business, and          architecture requirements with USAID or
 data needs of the organization.            State were fully addressed.


The following sections describe these problems in detail.

           Alternatives analysis is needed – OMB guidance for completing the Exhibit
300 requires agencies to analyze alternatives to compare viable solutions and include a
general analysis of the benefits for each alternative presented. However, formal
analyses of FACTS and the existing systems were not prepared, and the determination
that existing systems could not meet State/F needs was made through meetings and
discussions. For example, no formal cost analysis was performed at the outset of the
project to estimate the total cost of the system. As of December 2006, approximately
$2 million of the $3 million obligated had been spent. The final cost of the system is
unknown.

The FACTS project team stated that it considered, in discussions and at meetings, at
least four alternative systems before deciding to create FACTS by modifying a similar
system used by the Office of the U.S. Global AIDS Coordinator. The four systems were
USAID’s existing Annual Reporting system, the COPRS used by the Office of the U.S.
Global AIDS Coordinator, State’s Mission Performance Plan, and the International
Affairs Database. Although these alternatives were considered, their strengths and
weaknesses were not formally evaluated using prescribed methods. Because this
comparative analysis was undocumented, the project team could not demonstrate



                                                                                        7
whether or how it considered items required by Exhibit 300, including life-cycle costs,
defined return on investment, quantitative benefits, or the availability of commercial
products.

The absence of a rigorous method for conducting and documenting a comparative
analysis raises questions about whether project managers are selecting the most cost-
effective and beneficial option.

          Earned value metrics should be used to monitor the project – The cost
and schedule performance section of Exhibit 300 provides a summary of the
investment’s status in meeting baseline cost and schedule goals through the use of an
earned value management system for new systems such as FACTS. An earned value
management system is used to compare the value of work performed with its actual cost
during the development of an investment. OMB guidance requires agencies to have a
process in place to measure work performed using earned value metrics. FACTS was
not subjected to a structured process that used OMB-prescribed methods for assessing
and monitoring the performance for accomplishing baseline cost and schedule
performance goals.

To monitor the progress of the project, the FACTS project team stated that it held
monthly budget meetings with the contractor to discuss progress on the following high-
level activities:

   •   Project management
   •   Ongoing maintenance
   •   Software development
   •   External integration
   •   System security
   •   Help desk support
   •   Training
   •   Data warehouse and ad hoc reporting
   •   Outsourcing hosting

In the meetings, the team evaluated the rate at which funds were being spent for
budgeted line items for each of the nine high-level activities. To determine the
reasonableness of the spending rates, team members relied on their experience from
past projects and on the expertise of the contractor that was developing the system to
monitor the progress toward meeting the high-level tasks.

Exhibit 300 sets a more objective requirement. The exhibit requires cost and schedule
milestones and the formulation of earned value metrics. Earned value metrics
demonstrate the relationship between project tasks and deliverables and the resources
used to produce them. These metrics are useful for quantifying the level of effort and the
resources planned for completing a task and for allowing an objective comparison
between planned efforts and the efforts used. For example, in using earned value
metrics, each of the nine high-level activities would have been broken down into smaller
distinct steps. The level of effort expected for each step would have been estimated in
advance and the actual effort spent for each step would have been tracked to allow
management to assess how efficiently resources were being used. Without these




                                                                                        8
metrics, the project team could not demonstrate whether the development of the
project’s components was efficiently meeting cost and schedule performance goals.

           Alignment with Federal enterprise architecture is needed – Enterprise
architecture is a roadmap that defines in logical, business, and technical terms how an
organization operates, intends to operate in the future, and intends to invest in
technology during the transition to this future state. The enterprise architecture section of
Exhibit 300 demonstrates that the investment is included in the agency’s enterprise
architecture.

The audit team found no indication that the FACTS architecture had been reviewed or
found to be compatible with existing and future USAID or State IT architectures. As a
result, the systems may need to be reworked to align FACTS with USAID’s and State’s
operating vision, embodied in the Federal enterprise architecture. Furthermore, FACTS
is at risk of failing to integrate adequately with other systems and, therefore, may be too
expensive to operate and integrate at a future date.

Causes of problems are identified – The incidence of noncompliance with Clinger-
Cohen identified in the audit and the cost and implementation uncertainties associated
with that noncompliance were caused primarily by (1) unclear delineation of oversight
roles and responsibilities for FACTS between USAID and State at the outset of the
project and (2) the aggressive schedule imposed by State/F for deploying FACTS for the
FY 2007 planning cycle.

           Oversight roles and responsibilities were unclear – The blurring of
reporting lines between USAID and State/F created confusion over the roles and
responsibilities in the development and implementation of FACTS and left a gap of
accountability for following best practices and government requirements related to IT
system investments. From the start, FACTS project ownership was not clearly defined
according to Federal standards and management controls for clearly communicating key
areas of authority and responsibility. Consequently, FACTS did not receive the level of
oversight needed to ensure that the project met Federal requirements, such as the
capital planning and investment process.

Although the project is funded by USAID, USAID has been unclear about its roles and
responsibilities. For example, USAID managers had little involvement in the project.
Furthermore, USAID stated that the cognizant technical officer’s responsibility to oversee
the contract was complicated by the day-to-day interactions between the State/F team
and the contractor.

The project team did consider submitting an OMB Exhibit 300, but it could not decide
whether the exhibit should be submitted through USAID or State channels. At the outset,
the team’s impression was that neither USAID nor the State Department considered the
project their responsibility.

          Aggressive scheduling of FACTS had effect – The approach for
implementing FACTS was oriented toward rapid deployment to meet critical needs. It
was implemented in 6 months, a schedule that State/F agreed was ambitious. This
schedule left limited time to subject FACTS to a CPIC review and to test and validate the
system and data. This lack of testing and validating contradicts best practices that



                                                                                           9
advocate evidence of successful milestone completion before continuing with
subsequent phases.

According to the sole-source justification, which was signed on June 8, 2006, the
Country Operational Plans for FACTS should have been submitted to State/F by
December 15, 2006, and the Congressional Notification should have been submitted by
April 30, 2007. Although the project team indicated they had considered submitting an
OMB Exhibit 300 in 2006 and consulted with the chief information officers at the
Department of State and USAID about their annual CPIC process (which had already
begun), waiting for the next CPIC review cycle was not an acceptable solution for the
system owner, State/F. The goal to have operational plans by mid-December led the
project team to forgo the submission of the Exhibit 300 in 2006 and to proceed beyond
the confines of the CPIC process.

Moreover, to meet the December milestone date, internal testing and validations had to
be in place by August 2006, 4 just 2 months after signing the sole-source justification.
This aggressive testing schedule did not allow sufficient time to correct problems, so
FACTS may have been deployed without the management capabilities to correct
problems before they affected employee productivity. Some of the problems FACTS
encountered when it was deployed included (1) vendor tables were not fully populated,
(2) data entry was overwhelming, and (3) system response time was slow.

Vendor tables – After FACTS was deployed, users noted that system information on
organizations that implement USAID programs was incomplete. FACTS requires users
to identify a relationship between the funding source and the organizations that
implement foreign assistance activities, such as contractors, grantees, and partners, by
selecting the appropriate organization from a predefined list included in FACTS. In cases
in which the partner or subpartner responsible for implementing an activity had not been
included in FACTS, users were instructed to send the information to the FACTS project
team, which would then add the organization to the database. According to the FACTS
project team, 97 operating units had submitted requests to add various organizations
into the FACTS system. Additional contractor support was obtained and the due date for
completing the operating plan was extended.

Data entry – After FACTS was deployed, users discovered that it was time-intensive to
enter data in FACTS for program-funded costs when a cost had to be allocated among
many program objectives, areas, elements, and subelements. 5 To decrease this burden,
operating units were instructed to enter total costs.

FACTS users noted that the number of individual grants, subgrants, and small
purchases that needed to be entered in FACTS was burdensome at times. The solution
4
    Testing was subsequently delayed and did not begin until mid-November. Because the system
    went live on December 10, Country Operational Plans were rescheduled to be due to State/F
    on January 31, 2007.
5
    Examples include security guard contracts, a voucher examiner, a public affairs person, or an
    evaluation and monitoring specialist. Under previous guidance from the State/F project team,
    the cost for each example has to be apportioned across all program objectives, areas, and
    elements. This process required many entries into FACTS for each person or contract. The
    extent and impact of these types of transactions have not been quantified. They depend on the
    number of resources being shared between programs and projects at a particular
    organizational unit.


                                                                                              10
to reduce this data entry burden was to allow operating units to group similar grantees,
subgrantees, or small purchases into single entries. This solution creates two
unforeseen problems. First, the change could diminish the usefulness of FACTS by
eliminating low-level data. Because summarized data are being entered in the FACTS
database, answers to queries become limited to data at the summarized level. Second,
the solution spawns a need to create and maintain a new set of records to support the
data entered at the summarized level. Any data requests that seek to answer questions
at a level lower than the data summarized in the database have to be answered by an
ad hoc request submitted to the operating unit. The project team stated that the loss of
such data would not have a significant impact. Whether or not this data loss is the case,
it illustrates a tradeoff in functionality that had to be made to reduce unforeseen levels of
effort.

System response time – The project team did not have data available to show the
various system response times at the different locations where FACTS was used.
However, the team acknowledged that some locations were experiencing difficulties.
The audit team found at least three USAID missions that experienced slow system
response times. One organizational unit noted that it took between 15 and 90 seconds
for data to be recorded before they could proceed with the next action. This is especially
problematic when users try to enter data into the indicator section of FACTS, where
there are sometimes more than 100 indicators. At times, the user’s session would time
out before the transaction could be recorded. Users trying to save data after receiving
error messages found that data had been lost.

Conclusion

The vision that FACTS is supposed to meet in support of the President’s National
Security Strategy is commendable and necessary. However, FACTS is an ambitious
undertaking, and it is precisely the far-reaching potential coverage of FACTS that makes
participation in a CPIC process critical. Exhibit 300 requires that a project’s mission and
strategic goals be defined and mapped to clearly measurable outcomes. The Clinger-
Cohen Act was enacted in part to address the propensity of IT projects to exceed
budgeted costs and fail to provide working solutions. Because the development of
FACTS has not complied fully with the Clinger-Cohen Act, cost overruns are likely.

Overall, work on FACTS continues even though an OMB Exhibit 300 has not been
submitted and the system has not been vetted by either USAID or State capital planning
and investment board equivalents. Therefore, there is no assurance that FACTS’ current
implementation and future additions and enhancements have been fully vetted. At this
point, the course that FACTS will take into the future is unclear.

Following are three recommendations to improve the controls over FACTS.

       Recommendation No. 1: We recommend that USAID’s Acting
       Administrator explicitly clarify whether USAID or the Department of State
       has capital planning and investment control oversight responsibilities and
       authorities to manage the development and implementation of the
       Foreign Assistance Coordination and Tracking System.




                                                                                          11
Recommendation No. 2: We recommend that USAID’s Acting
Administrator ensure that a Foreign Assistance Coordination and
Tracking System business case, Exhibit 300, is developed and vetted
through the capital planning and investment control review process and
submitted to the Office of Management and Budget for funding by the
designated responsible party (see Recommendation No. 1). Such steps
would ensure that the project team (a) prepares a formal analysis of
system alternatives, (b) uses prescribed metrics to monitor cost and
schedule performance, and (c) obtains documented approval of
compliance with USAID’s and State’s enterprise architecture.

Recommendation No. 3: Until such time as the Foreign Assistance
Coordination and Tracking System project is vetted through the capital
planning and investment control review process, we recommend that
USAID’s Acting Administrator ensure that no funds are committed to the
development of new features or functions for the Foreign Assistance
Coordination and Tracking System.




                                                                         12
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID agreed with the findings and recommendations
in the report. USAID agreed to take corrective action on all three recommendations and
provided corrective action plans and target completion dates. As a result, management
decisions have been reached for Recommendation Nos. 1, 2, and 3.

In its response, USAID requested a briefing by OIG to clarify its understanding of the
phrase “development of new features or functions” before the issuance of the final
report. The OIG advised USAID that it was management’s responsibility to determine
what constitutes new features or functions and that it should make those determinations
in consultation with its CIO.

USAID provided additional comments that we considered in finalizing our audit report,
and we made changes as appropriate.

USAID’s comments, which incorporated those from the Office of the Director of Foreign
Assistance (State/F), are included in their entirety in Appendix II.




                                                                                    13
                                                                                APPENDIX I



SCOPE AND METHODOLOGY
Scope
This audit was performed in accordance with generally accepted government auditing
standards. The Office of Inspector General, Information Technology and Special Audits
Division, performed this audit to determine whether USAID followed Federal capital
planning and investment control (CPIC) requirements and best practices established by
the Clinger-Cohen Act to improve the probability of success of information technology
(IT) projects. Audit fieldwork was conducted at USAID headquarters in Washington, DC,
between December 14, 2006, and February 8, 2007. The audit team met with the project
management staff within the Strategic Information unit of the Office of the Director of
Foreign Assistance (State/F). The Director of Foreign Assistance is the Administrator for
USAID.

The audit team focused primarily on the need to use a CPIC process to justify and vet
the Foreign Assistance Coordination and Tracking System (FACTS) project and the
consequences of failing to follow up on the types of problems that result from not having
submitted a project to the CPIC process. The team did not conduct an audit to determine
the significance, extent, or severity of the issues noted in this report. Likewise, it did not
attempt to identify an exhaustive list of problems.

The audit team evaluated internal controls related to the audit objective, and also
evaluated whether the project team prepared the following project management
deliverables:

   •   Business case (also known as Exhibit 300)
   •   Detailed design document
   •   Security categorization
   •   Systems development life cycle
   •   Project plan

As of December 31, 2006, the project team reported that approximately $3 million of
USAID funds had been obligated, approximately $2 million of which had been spent in
developing FACTS.

Methodology
As the framework for designing this audit, the team used selected detailed control
objectives from the IT Governance Institute’s 2005 edition of Control Objectives for
Information and Related Technology (COBIT) under the Acquire and Maintain
Application Software section. In addition to using the Clinger-Cohen Act as the criterion
for this audit, the team reviewed the implementing documentation for IT CPIC policies
contained in USAID’s Automated Directives System 577 and the Office of Management
and Budget’s (OMB’s) Circular A-11. The circular stipulates various requirements for IT
investments, including Exhibit 300 elements. The audit team obtained the Department of
State’s policy for IT CPIC (contained in 5 Foreign Affairs Manual 1040) only to determine
that such a policy exists in support of the Clinger-Cohen Act. The team also reviewed



                                                                                           14
numerous Government Accountability Office (formerly the General Accounting Office)
publications and guides relating to IT investments, including “Information Technology
Investment Management, A Framework for Assessing and Improving Process Maturity”
(GAO-04-394-G) and “Assessing Risks and Returns: A Guide for Evaluating Federal
Agencies’ IT Investment Decision-Making” (GAO/AIMD-10.1.13). The team obtained and
reviewed contract documentation, including the sole-source justification for FACTS.

Using the COBIT-detailed control objects related to high-level design, detailed design,
application control and auditability, application security and availability, and application
requirements management, the team identified project deliverables and documentation
that it expected would be available based on its review of documentation supporting the
Clinger-Cohen Act. The audit team requested and evaluated those items.

Because USAID funds and a USAID contract were used in support of the development
and implementation of FACTS, and because the contract stipulated the use of USAID
requirements, the team relied on USAID’s CPIC policy as the basis for its review.
Because FACTS’ development was directed by State/F and FACTS is owned by State/F,
the team interviewed members of the FACTS project management team within the
Strategic Information unit of State/F. It also obtained documentation from State/F for
FACTS. The team did not interview State officials outside of State/F who are responsible
for reviewing IT investment planning documentation in regard to State/F’s CPIC of
FACTS, because this was perceived to exceed the team’s statutory audit authority.
Nevertheless, in interviews, State/F’s project team indicated that neither USAID’s nor
State’s CPIC review processes were used.

Because the audit would reveal whether or not the FACTS project had participated in a
CPIC process, a specific materiality threshold was not set.




                                                                                         15
                                                                            APPENDIX II



MANAGEMENT COMMENTS

                                         August 17, 2007

Office of the Administrator

MEMORANDUM FOR THE INSPECTOR GENERAL

SUBJECT:       Comments on Draft Audit of the U.S. Agency for International
               Development's (USAID's) Capital Planning and Investment Control
               for the Foreign Assistance Coordination and Tracking System (FACTS)
               (Audit Report No. A-000-07-00X-P)

      Thank you for the opportunity to respond to the draft audit report. Following is
my response to each recommendation:

         Recommendation No. 1: We recommend that USAID's Acting Administrator
explicitly clarify whether USAID or the Department of State has capital planning and
investment control oversight responsibilities and authorities to manage the development
and implementation of the Foreign Assistance Coordination and Tracking System.

        Management Decision: An Action Memo will be signed by the Director of U.S.
Foreign Assistance/USAID Acting Administrator clarifying which Agency has lead
oversight and management responsibilities for the FACTS system. Since FACTS is a
joint system, both Agencies' capital planning and investment control bodies will review
the business case.

       Target Completion Date: August 31, 2007.

        Recommendation No. 2: We recommend that USAID's Acting Administrator
ensure that a Foreign Assistance Coordination and Tracking System business case,
Exhibit 300, is developed and vetted through the capital planning and investment control
review process and submitted to the Office of Management and Budget for funding by
the designated responsible party (see recommendation 1). Such steps would ensure
that the project team (1) prepares a formal analysis of system alternatives, (2) uses
prescribed metrics to monitor cost and schedule performance, and (3) obtains
documented approval of compliance with USAID's and State's enterprise architecture.




                                                                                          16
                                           -2-


         Comment: State/F met with both State and USAID CIO offices to obtain
guidance on the capital planning and investment control review processes and E300
business case requirements beginning in June 2006. The process was formally
initiated with the submission of a "pre-select" worksheet to the State e-Gov office on
May 8, 2007, which was approved on May 16, 2007.

       Management Decision: The FACTS E300 business case was submitted to both
USAID and State's capital planning and investment control bodies on July 27, 2007.
This E300 includes a formal alternatives analysis, a proposed schedule for deliverables
to be monitored, and compliance with enterprise architecture requirements. The
business case is now under review and approval is expected by the end of August 2007.

        Target Completion Date: September 10, 2007.

        Recommendation No. 3: Until such time as the Foreign Assistance
Coordination and Tracking System project is vetted through the capital planning and
investment control review process, we recommend that USAID's Acting Administrator
ensure that no funds are committed to the development of new features or functions
for the Foreign Assistance Coordination and Tracking System.

        Comment: We are requesting a briefing, prior to the issuance of the final audit
report, so we can confirm our understanding of the phrase "development of new
features or functions."

        Management Decision: The FACTS business case was submitted to both State
and USAID for review by the appropriate committees on July 27, 2007. It is anticipated
that by the end of August, both agencies will have reviewed and approved the E300.
Prior to approval, no funding will be committed for the development of new features or
functions for the FACTS system.

        Target Completion Date: September 10, 2007.




                                                                                          17
                                           -3-


Additional Comment:

        Page 9─Oversight roles and responsibilities were unclear: We recommend
replacing the last sentence in the second paragraph of this section with the following
sentence: "Furthermore, the cognizant technical officer's responsibility to oversee the
contract was complicated by the day-to-day interaction that the State/F team had with
the contractor."



                                                    [James R. Kunder for /s/]

                                             Henrietta H. Fore
                                             Acting Administrator




                                                                                          18
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
